          Peace Corps
          Office of Inspector General




PC/ Cape Verde office in Praia        Mountain vista, Santo Antao island




                          Flag of Cape Verde




                Final Audit Report:
              Peace Corps/Cape Verde

                                                      December 2009
  Final Audit Report:
Peace Corps/Cape Verde
      IG-10-03-A




____________________________________
         Gerald P. Montoya
Assistant Inspector General for Audit




         December 2009
                            EXECUTIVE SUMMARY

We found that Peace Corps/Cape Verde’s financial and administrative operations and its
compliance with agency policies and federal regulations required improvement in a
number of areas. Some of the more important findings are summarized below.

Imprest Fund Management
The cashier did not change the combination to the imprest fund safe at least annually, in
order to safeguard the fund’s assets.

Volunteer Allowances
The post did not compile and evaluate the Volunteer responses to the fiscal year (FY)
2009 living allowance survey, which is used to determine the adequacy of the
Volunteers’ allowance, and did not perform a related independent market basket survey.
In addition, the FY 2008 living allowance survey sent to Volunteers in September 2007
with a November 30, 2007 response cut-off date, was not compiled until June 2008, thus
reducing the survey’s usefulness. Further, the survey results showed economic variations
among different islands, indicating that a review of survey results by location would be
more effective.

Additionally, the FY 2009 settling-in allowance survey, used to determine the adequacy
of the settling-in allowance when Volunteers first arrive at their sites, was not compiled
and independent price survey was not performed. Finally, the post did not have on file a
memorandum of agreement with the bank handling Volunteer allowances, establishing
and documenting the bank’s requirements and responsibilities for the funds.

Billings and Collections
The billing officer did not record billings and prepare bills of collection for host country
contributions (HCCs) for Volunteer housing until the HCC checks were received by the
post. Further, the billing officer received the checks rather than the collection officer, a
violation of segregation of duties requirements. Finally, some billings for personal phone
usage were issued late.

Host Country Contributions
All in-kind host country contributions were not included on budgetary reports to
headquarters.

Volunteer Property Held for Safekeeping
The inventory lists of maintained Volunteer property were kept with the property in the
safe, rather than in a separate location. In the event of the loss of the safe’s contents, the
post would have no record of the Volunteer property held for safekeeping. Also, the
information on the inventory list, which was given to Volunteers as a receipt, contained




Final Audit Report: Peace Corps/Cape Verde                                                       i
an incorrect agency liability amount. In addition, one list had an inaccurate description
of the property held.

Property Management
The property inventory records contained discrepancies. Further, the property control
officer did not reconcile the records with changes before the annual physical inventory
was conducted. The reconciliation might well have identified the discrepancies.
Accurate inventory records are essential in controlling the related property.

Vehicles Management
The vehicle usage logs were incomplete and were not reviewed, initialed, and dated by
all required individuals, in order to ensure that the post’s vehicles were being properly
used. In addition, the post’s auction process for the sale of used vehicles contained
internal control deficiencies. Further, while the post obtained the chief of mission’s
approval for temporary usage by the country director of post vehicles, the post did not
obtain the required regional director approval.

Personnel Management
The post had a discrepancy in payments that it was required to make to Cape Verde’s
social security agency. The issue, if left unresolved, could lead to future problems.
Additionally, during our review, we found deficiencies in time attendance procedures
including errors and inconsistencies in the staff’s recording of sick leave, annual leave,
and compensatory time on the timesheets, and discrepancies in the official time and
attendance records.

Procurement
In several cases involving personal services contractors (PSC), the post’s contract files
lacked essential documention including security clearances, intelligence background
information certification forms, and in the case of the Peace Corps Medical Officer
(PCMO), approval from the Office of Medical Services. Further, the post’s PSC contract
stated that annual sick leave may be carried over, which differed from post policy and the
local compensation plan.

Purchase Card
The administrative unit did not use its purchase card to the maximum extent practicable,
in accordance with agency policy, to maximize procurement efficiency and effectiveness.

Medical Supplies
Physical inventories of medical supplies were performed annually; agency policy
requires that inventories be performed quarterly to ensure proper control. Moreover, the
person who kept the inventory records also conducted a part of the physical inventory, a
violation of segregation of duties requirements. Additionally, during our review, we
found discrepancies between the medical supplies records and the actual inventory.




Final Audit Report: Peace Corps/Cape Verde                                                   ii
Appendix B includes comments from post staff and Volunteers interviewed. Our report
contains 41 recommendations, which, if implemented, should strengthen internal controls
and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Cape Verde                                                iii
                                                 TABLE OF CONTENTS
EXECUTIVE SUMMARY ...............................................................................................................i

INTRODUCTION.......................................................................................................................... 1

AUDIT RESULTS ........................................................................................................................ 1

A. IMPREST FUND MANAGEMENT ............................................................................................ 2

B. VOLUNTEER ALLOWANCES .................................................................................................. 3

C. BILLINGS AND COLLECTIONS ............................................................................................... 5

D. HOST COUNTRY CONTRIBUTIONS ........................................................................................ 8

E. VOLUNTEER PROPERTY HELD FOR SAFEKEEPING ................................................................ 8

F. PROPERTY MANAGEMENT .................................................................................................. 10

G. VEHICLES MANAGEMENT .................................................................................................. 11

H. PERSONNEL MANAGEMENT ............................................................................................... 14

I. FILE MANAGEMENT ............................................................................................................ 15

J. PROCUREMENT.................................................................................................................... 16

K. PURCHASE CARD ............................................................................................................... 17

L. MEDICAL SUPPLIES ............................................................................................................ 18

QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .................................................. 20

POST STAFFING ....................................................................................................................... 21

LIST OF RECOMMENDATIONS .................................................................................................. 22

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT’S RESPONSE

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                 INTRODUCTION

The Office of Inspector General conducted an audit of Peace Corps/Cape Verde May 7 –
29, 2009. We previously performed an audit of the post in September 1999 (IG-99-14-2
issued March 2000) and a follow-up audit in January – February 2002 (IG-02-08-FA
issued July 2002).

The Peace Corps commenced its program in Cape Verde in 1988, 13 years after the
country achieved its independence from Portugal. Since then, approximately 450
Volunteers have served there. At the time of our audit, 52 Volunteers were engaged in
two project areas: education and small enterprise development. The country director
arrived at the post in August 2007. The administrative officer, a foreign service national,
has served in this capacity since 2000.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a
full description of our audit objective, scope, and methodology.


                                AUDIT RESULTS

We found that Peace Corps/Cape Verde’s financial and administrative operations
required improvement in a number of areas and did not fully comply with agency policies
and federal regulations.

For example, we found that the post did not:

   •   Change the imprest fund safe’s combination at least annually.
   •   Conduct complete and timely Volunteer living and settling-in allowance surveys.
   •   Record billings for host country contributions when the post requests the funds.
   •   Maintain accurate property inventory records.
   •   Keep complete vehicle usage logs and perform weekly reviews by all required
       persons.
   •   Establish adequate controls over auctions of post vehicles.
   •   Prepare accurate and timely time sheets and have them approved by supervisors.
   •   Maintain complete personal services contractor files.
   •   Perform quarterly inventories of medical supplies and segregate the
       responsibilities for inventory recordkeeping and verification.




Final Audit Report: Peace Corps/Cape Verde                                                1
A. IMPREST FUND MANAGEMENT

1. The cashier did not change the combination to the imprest fund safe.

Peace Corps Manual (PCM) section 760.5.2 states: “The cashier must personally set the
combination to the safe. The Embassy Regional Security Officer (RSO) or technician
assisting with the changing of the combination is not authorized to set or know the
combination of the safe.”
The cashier informed us that the engineering support specialist from the office of the
Regional Security Officer (RSO) at the U.S. Embassy in Dakar changed the combination.
He last changed it on October 20, 2008. The cashier further told us that she was not
trained on how to do it.

Changing the safe combination as required reflects the cashier’s responsibility for
safeguarding the imprest fund and her personal accountability for its contents.


               We recommend:

               A.1.1 That the country director ensure that the cashier be
                     trained so that she may change the imprest fund safe
                     combination.

               A.1.2 That the cashier change the imprest fund safe
                     combination annually, when there is a change in
                     cashiers, or whenever the combination becomes
                     known to a person other than the cashier.


2. The cashier incorrectly reported cash advances made to the alternate cashier.

PCM section 760.13.1 states: “All advances must be properly documented and
accounted for in the imprest reconciliation.”

The cashier made advances to the alternate cashier but incorrectly reported these on the
imprest fund’s cashier reconciliation statement in the “subcashier” section. The post had
no subcashiers.

Properly reporting cash advances permits an appropriate accounting for the advances and
an adequate review of their nature.




Final Audit Report: Peace Corps/Cape Verde                                              2
               We recommend:

               A.2.1 That the post properly report cash advances to the
                     alternate cashier on the imprest fund’s cashier
                     reconciliation statement.


B. VOLUNTEER ALLOWANCES

1. The post did not perform adequate and timely Volunteer living allowance surveys.

PCM section 221.5.1 states: “Volunteers are entitled to a living allowance in order that
they may serve effectively and safely overseas.”

PCM section 221.5.7.3 states: “Increases or decreases to the base living allowance must
be based on the findings of the Volunteer living allowance survey, as supported by the
market basket survey.”

PCM section 221.5.7.2 states, “The market basket survey is to be used as a guide to
validate the cost data on the living allowance survey submissions….If there are locality
supplements being paid to some Volunteers, it is recommended that a separate market
basket survey be conducted in each locality.”

In addition, PCM section 221.4.2 states: “A survey response rate of a minimum of 75% is
required to support an increase greater than 10%.”

The post’s conduct of the living allowance surveys for fiscal years 2009 and 2008 was
inadequate as follows:

•   The post sent the survey forms to Volunteers in September 2008 but did not compile
    and evaluate the responses. Further, the post did not perform a market basket survey.

•   The post sent the FY 2008 survey form to Volunteers in September 2007 with a
    November 30, 2007 response cut-off date. However, it did not compile the results
    until June 2008, which reduced their usefulness. The administrative officer told us
    that he misunderstood agency policy and prolonged the response cut-off date in order
    to obtain a 75% response rate; a 75% response rate is not required by agency policy
    for a living allowance increase of 10% or less.

•   The post performed the FY 2008 market basket survey at one mini-market in the
    capital, Praia. However, a market basket survey conducted at one location in an
    urban area was not useful as most Volunteers live in rural areas.

•   The post did not compare the FY 2008 market basket and Volunteer survey data in
    evaluating the results.



Final Audit Report: Peace Corps/Cape Verde                                                 3
The Volunteer survey responses showed variances among the different islands, indicating
that stratification would be appropriate to ensure that the allowances reflect the
Volunteers’ living needs.

Volunteers depend on the living allowance for their support and well-being. Complete
and timely living allowance surveys are critical in ensuring the allowance’s adequacy.


               We recommend:

               B.1.1 That the post compile and evaluate Volunteer living
                     allowance surveys in a timely manner.

               B.1.2 That the post conduct market basket surveys and
                     use them in evaluating the results of the Volunteer
                     living allowance surveys to determine whether the
                     allowance is adequate to support the Volunteers’
                     living needs.

               B.1.3 That the post conduct its market basket surveys in
                     locations that are representative of where
                     Volunteers live.

               B.1.4 That the post correctly apply the 75% response rate
                     policy for living allowances increases.

               B.1.5 That the post review its Volunteer living allowance
                     survey responses for variations to determine if the
                     allowance should be stratified by location.


2. The post did not compile and analyze the settling-in allowance survey responses nor
perform an independent price survey.

At the conclusion of pre-service training, newly sworn-in Volunteers are given a settling-
in allowance to provide for their needs when arriving at their sites. PCM section 221.3.1
states that the allowance is for the purchase of “necessary housing supplies and
equipment.”

To verify that the allowance is adequate, PCM section 221.4.2 requires that the post
conduct Volunteer settling-in surveys and related independent price surveys.

The post did not complete its settling-in survey for the Volunteer group that swore in
September 2008. The post distributed the survey forms to the new Volunteers but did not
compile the results. Further, the post did not perform an independent price survey.



Final Audit Report: Peace Corps/Cape Verde                                               4
Volunteers rely upon the post to provide them with adequate allowances, which are
mandated by Section 2504 of the Peace Corps Act. Settling-in allowance surveys,
properly conducted, help ensure that the allowance is adequate.


               We recommend:

               B.2.1 That the post conduct Volunteer settling-in
                     allowance surveys and related independent price
                     surveys to determine whether the allowance is
                     adequate to support the Volunteers’ settling-in
                     needs.


3. The post did not have a memorandum of agreement with the bank handling
Volunteer allowances.

PCM section 221.6.1 requires that the post execute a memorandum of agreement (MOA)
with the bank handling Volunteer living allowances, in the form specified by Attachment
D to the policy.

The post had not obtained an MOA from its bank for the new pass-through account for
Volunteer allowances. The administrative officer told us that he intended to request it
from the bank.

The MOA clarifies the requirements and responsibilities of the bank in its relationship
with the Peace Corps and helps the post makes certain that it is obtaining all the services
agreed upon.


               We recommend:

               B.3.1 That the post execute a memorandum of agreement
                     with the bank handling Volunteer living allowances.


C. BILLINGS AND COLLECTIONS

1. The post did not always bill promptly for personal phone calls.

PCM section 777.16.4 states: “An employee indebtedness should be settled promptly.”
This is clarified by Overseas Financial Management Handbook (OFMH) section 7.3,
which states: “Payment is required within 30 days of the receipt of the billing document
(issued by the Billing Officer).” For staff members to settle their debts promptly, bills of
collection must be issued in a timely manner.



Final Audit Report: Peace Corps/Cape Verde                                                    5
The post did not always bill timely for personal phone calls by staff on post-issued cell
phones. For example, telephone charges incurred by one staff member between January
and July 2008 were not billed and collected until September 2008. This and other
examples of a lack of billing timeliness to staff are presented in the table below.

                        Amount (in         Amount (in           Date Billed per
  Period of             Cape Verde          U.S. dollar             Bill of
                                                                                  Date Collected
 Phone Usage             escudos)          equivalents*           Collection
                                                 )
Aug - Oct 2007              9,485             118.56               12/13/07          12/13/07
Jan - June 2008            15,257             190.71                9/3/08            9/4/08
Jan - June 2008            5,086              63.58                8/14/08            9/2/08
January 2009               9,012              112.65                4/6/09            4/8/09
* $1 = approximately 80 Cape Verde escudos at the audit date.



The administrative officer told us that some delays were due to staff members’ not
promptly identifying their personal charges on the phone bills and to ineffective
oversight.

Timely billing, along with effective oversight, is essential to the management of post
assets.


                 We recommend:

                 C.1.1 That the billing officer bill staff for personal phone
                       charges in a timely manner after receipt of the
                       phone bills.


2. The post’s bills of collection log had gaps in numerical sequence.

PCM section 777.22.1 states: “To facilitate and assure prompt deposit and credit, it is
imperative that the accounting data necessary to identify the transaction in the Agency
financial records be shown on billing and collection documents.”

The bills of collection (BOC) log had several gaps in sequence. The administrative
officer, who served as the billing officer, did not know why these discrepancies had
occurred and told us that he would follow up and take action as required.

Administrative review of the transactions in the BOC log is an important control in
detecting and preventing errors and irregularities.




Final Audit Report: Peace Corps/Cape Verde                                                      6
               We recommend:

               C.2.1 That the administrative officer determine the
                     reasons for the gaps in numerical sequence in the
                     bills of collection log and take corrective action as
                     needed.


3. The billing officer did not record billings for host country contributions (HCCs)
until the funds were received. Additionally, the billing officer directly received the
HCC checks upon their arrival at the post.

PCM section 777.4.1.2 states: “A letter may be used for a billing in those instances
where deemed the best method by the billing officer or official. When a letter is used,
Form PC-1566 [bill of collection] is also prepared for internal control purposes; however,
it is not issued to the debtor.”

PCM section 777.3.4 states: “Peace Corps procedures require that all remittances and
collections be sent or delivered to the collection officer….”

The billing officer sent letters, generally monthly, to the Ministry of Education to request
the HCCs for education Volunteers’ housing. However, he did not prepare the bills of
collection and record the billings in the ForPost system until the amounts were collected.
The billing officer told us that the Ministry often took one or two months to remit the
checks, and he did not want to show such a large time lag in the accounting records.

In addition, the billing officer, rather than the collection officer, received the checks from
the Ministry, violating segregation of duties requirements. This was a significant breach
in internal control given that there was no record in ForPost until the time of collection.

Proper internal control over billings and collections requires that the billing officer record
all billings at the time they are made and that the collection officer receive all
remittances.


               We recommend:

               C.3.1 That the billing officer record host country
                     contribution billings in the ForPost system and
                     prepare the related bills of collection at the time the
                     amounts are billed.

               C.3.2 That the collection officer rather than the billing
                     officer receive the host country contribution checks.




Final Audit Report: Peace Corps/Cape Verde                                                   7
D. HOST COUNTRY CONTRIBUTIONS

1. The post did not list all host country contributions in its reporting to headquarters.

PCM section 722.5.2 indicates that “residential furnishings provided [to] Volunteers”
should be considered a host country contribution.

In addition, PCM section 722.7.2.1 states: “The recorded value of in-kind contributions
shall be based on a rational estimate of the cost of the contributed supplies or services to
the Peace Corps.”

The post received furniture and equipment for the housing of small enterprise
development Volunteers as HCCs from sponsoring organizations. While the post
properly reflected the furniture and equipment’s estimated value (100,000 Cape Verde
escudos, equivalent to approximately $1,250) as an in-kind HCC in its 2009 operating
plan, it did not reflect the value in its HCC quarterly reports.

In addition, the post did not estimate and record in either the operating plan or in the
quarterly report the value of two in-kind HCCs. These consisted of a reduced cost for the
pre-service training facility and the free use of a school for in-service and mid-service
trainings.


               We recommend:

               D.1.1 That the post record all host country contributions
                     in its operating plan and its host country
                     contributions quarterly report.


E. VOLUNTEER PROPERTY HELD FOR SAFEKEEPING

1. The lists of Volunteer property were maintained together with the property.

To effectively safeguard Volunteer property held for safekeeping in accordance with
PCM section 235, proper internal control requires that the lists or log of Volunteer
property be maintained in a different location than the property itself.

The post kept the lists of Volunteer property held for safekeeping together with the
property in the safe. Maintaining the lists in a separate location ensures that there is a
record of property held in the event of loss.




Final Audit Report: Peace Corps/Cape Verde                                                     8
               We recommend:

               E.1.1 That the post keep the lists of Volunteer property
                     held for safekeeping in a different location than the
                     actual property.


2. The Volunteer property lists contained discrepancies.

PCM section 235 provides guidance on the proper handling of Volunteer property held
for safekeeping. The policy states: “The CD may authorize reimbursement of these
items [lost, damaged, or stolen while in Peace Corps custody] at the purchase price,
without regard to depreciation, up to an aggregate amount of $1,000.”

The Volunteer property lists, copies of which were provided to Volunteers as their
receipt, contained exerpts from a portion of PCM section 235, which was revised in 2007.
The lists incorrectly stated that the maximum liability was $300, which was not in
accordance with current Peace Corps policy.

We also noted that one listing was signed only by the Volunteer and not by the custodian
in the space provided, to acknowledge receipt of the property. Another listing stated “Put
in no-fee passport.” This was out of compliance with Interim Policy Statement 4-4,
referenced in PCM section 213 “Volunteer No-Fee Passports.” Interim Policy Statement
4-4 provides that Volunteers are responsible for the safeguarding their no-fee passposts
and visas “by keeping them in their possession or easily accessible in a safe place at their
sites.” However, the description on the listing was incorrect. The Volunteer confirmed
to us that he provided his personal, not his no-fee, passport for safekeeping.


               We recommend:

               E.2.1 That the post provide current and accurate written
                     information to Volunteers regarding property held
                     for safekeeping.

               E.2.2 That the custodian of Volunteer property ensure that
                     the property listings are accurate and are signed by
                     both the custodian and the Volunteer.




Final Audit Report: Peace Corps/Cape Verde                                                9
F. PROPERTY MANAGEMENT

1. The post’s property inventory listing contained discrepancies.

PCM section 511.5.5 requires that the post “ensure that all changes [to its inventory] have
been entered in the property management database.”

The post’s property inventory listing included a number of discrepancies, principally
relating to computer equipment and cell phones, as follows:

   •   A Motorola cell phone listed in the property inventory records as located in the
       storage room, was not found.
   •   Two Nokia cell phones, a monitor in the Volunteer work room, and the docking
       station and laptop in the country director’s office had incorrect locations noted on
       the listing.
   •   A printer in the financial assistant’s office had a tag number different than on the
       listing.
   •   A laptop listed as “auction” was in use in the IT office.
   •   A laptop’s tag number was not included on the inventory listing.

An accurate inventory listing is essential for effective accountability and control over
post property.


               We recommend:

               F.1.1 That the post immediately conduct a physical
                     inventory of its computer equipment and cell
                     phones and ensure that the inventory listing reflects
                     the current status and location of the equipment.

               F.1.2 That the post institute a control procedure to track
                     the locations of laptops and cell phones.


2. The property officer did not verify that property changes were posted to the property
records.

PCM section 511.5.5 states: “Before beginning inventory, the Property Officer should
check the property management records against written documentation of
property/equipment changes to ensure that all changes have been entered in the property
management database.”




Final Audit Report: Peace Corps/Cape Verde                                                 10
The post’s property officer told us that he did not compare the inventory records against
documentation of additions and disposals to make certain that all changes had been
recorded before starting the physical inventory.

Comparing the inventory records against documentation of changes is an important step
in verifying that the records are complete before conducting the physical inventory.


               We recommend:

               F.2.1 That prior to beginning the physical inventory, the
                     property officer compare the property inventory
                     records against written documentation of changes
                     and verify that all changes have been recorded.


3. The administrative officer did not perform a quarterly reconciliation of the property
inventory with documentation of changes.

PCM section 511.6.1 requires that “the Administrative Officer reconcile the inventory
against receiving reports and requisition forms at least once a quarter.”

The administrative officer did not perform the quarterly reconciliations. He told us that
he did not know that these were required.

Periodically reconciling the inventory and supporting documentation ensures that all
inventory activity has been posted to the inventory records.


               We recommend:

               F.3.1 That the administrative officer reconcile the
                     property inventory with receiving reports and
                     requisition documentation quarterly.


G. VEHICLES MANAGEMENT

1. All required personnel did not review, initial, and date the vehicle usage logs
weekly; further, some logs had incorrect and incomplete postings.

PCM section 527.5.4 requires that the administrative officer, the staff member
responsible for initiating vehicle repairs or maintaining the vehicle records, and the staff
member responsible for billing authorized non-official vehicle use review, initial, and
date the vehicle usage logs weekly.



Final Audit Report: Peace Corps/Cape Verde                                                 11
We found that the person responsible for vehicle maintenance did not review, initial, and
date the vehicle usage logs. In addition, descriptions of vehicle trips were sometimes
missing or inadequate. We noted entries that contained starting and ending kilometers
but no description. Moreover, some destinations were not specific: “Various” or “Praia”
(the capital city), for example. In addition, the purpose of numerous trips was stated only
as “Service.” Three entries, totalling 435 kilometers, showed no destination and
identified the purpose of the trip as "transfer." The above descriptions thus gave no
indication of the official usage of the vehicles.

Complete and fully reviewed vehicle usage logs are important in ensuring that the post’s
vehicles are being used appropriately.


               We recommend:

               G.1.1 That required staff members review, initial, and
                     date the vehicle usage logs weekly.

               G.1.2 That staff record all usage of post vehicles in the
                     vehicle usage logs and that the descriptions be
                     sufficiently detailed to permit review.


2. The post’s auction process contained deficiencies.

PCM section 527.5.6 states: “The Agency’s Vehicle Fleet Management Guide [hereafter,
the Guide] sets out in-depth the procedures and requirements for use of the Agency’s
vehicle fleet.” The Guide includes a section on vehicle disposal procedures.

The process and procedures used in two auctions conducted by the post for the sale of its
vehicles were deficient as follows:

•   In its newspaper announcement, the post asked bidders to include with their bid their
    name, address, and contact phone number. However, the post did not provide a
    standard form to ensure that this key information was provided.

•   We were told that bidders brought their sealed envelopes to the receptionist inside the
    Peace Corps office, bypassing building security controls.

•   Control at the initial point of receipt of the bids, by the use of a locked box, a log, a
    “date received” stamp, and sequential numbering on the envelopes containing the
    bids, did not exist. Rather, the receptionist brought the envelopes containing the bids
    to the administrative officer or the country director for holding.

•   There was inadequate documentation of the process for notifying the winner. The
    winner’s name, along with instructions for completing the transaction, was posted


Final Audit Report: Peace Corps/Cape Verde                                                 12
   outside the Peace Corps office. For transparency and to ensure that all bids had been
   considered, the amount of the winning bid should also have been posted and would
   have permitted a higher bidder, if one existed, to challenge the determination.
   According to the administrative officer, the winner was also telephoned, but this was
   not documented. Such transparency was particularly important given that one of the
   two vehicles was sold to a staff member.

It is essential that the post perform and clearly and completely document its auction
determinations, controls, and procedures to maximize the returns to the Peace Corps and
to minimize the opportunity for, and detect and prevent, waste, fraud, and abuse during
the auction process.


               We recommend:

               G.2.1 That the post establish adequate controls over its
                     auctions in accordance with agency policy.


3. The post did not have on file all required written approvals for authorized use of
post vehicles.

PCM section 522.4.3.3 states that use of a Peace Corps vehicle may be authorized if
“exceptional circumstances make alternate transportation unsafe or unavailable.” In this
case, regional authorization and chief of mission concurrence are required.

The country director used a Peace Corps vehicle during a one-month period that the road
between his home and the Peace Corps office was passable only by a four-wheel drive
vehicle. The country director’s personal vehicle was two-wheel drive. While the post
obtained the written approval of the chief of mission, it did not have on file regional
director authorization.


               We recommend:

               G.2.2 That, in the future, the post obtain all approvals
                     required for the authorized use of Peace Corps
                     vehicles and maintain these in the post’s files.




Final Audit Report: Peace Corps/Cape Verde                                              13
H. PERSONNEL MANAGEMENT

1. The post staff’s social security contributions were not being accurately recorded.

The post is required to make regular, periodic payments to the local social security
agency, Instituto Nacional de Previdencia Social (INPS). The payment amount is 23% of
the salary amount; the post contributes 15% and the staff member contributes 8%.

While the post sent checks to INPS on a biweekly basis, the INPS appeared to have
recorded the checks as monthly contributions. In January 2009, the INPS returned to the
post a valid check (held at the time of the audit by the administrative officer in his safe),
stating that INPS had already received the required monthly payment. At the time of the
audit, the post was uncertain how far back the issue extended.

A deficiency in the INPS’ recording of post payments could lead to a potential liability
for the Peace Corps and problems for staff in obtaining the benefits to which they are
entitled.


               We recommend:

               H.1.1 That the post verify with the Cape Verde social
                     security agency that all periodic payments made on
                     behalf of staff have been received and properly
                     recorded.

               H.1.2 That, on an ongoing basis, the post determine if it
                     needs to adjust the timing of its payments to the
                     local social security agency to ensure their proper
                     recording by the agency.


2. The post’s time and attendance records and related control procedures were
deficient.

PCM sections 742.6.1 and 630.4.6 provide guidance in proper time and attendance
procedure.

We found deficiencies in the post’s biweekly timesheets, the official time and attendance
records, and related procedures, as follows:

   •   Supervisors did not always sign the time sheets prepared by staff members. In
       addition, one staff member submitted all her timesheets for calendar year 2008 on
       November 18, 2008.




Final Audit Report: Peace Corps/Cape Verde                                                 14
   •   The timesheets of some staff showed errors and inconsistencies in recording
       leave, holidays, and compensatory time. We noted such discrepancies on eight
       timesheets we reviewed.
   •   The post had no compensatory time approval form even though advance approval
       to earn compensatory time was required by post policy. The administrative
       officer developed and instituted an approval form during the audit.
   •   Our review of the official time and attendance records (maintained by the
       timekeeper on Form PC-57) identified discrepancies between the official records
       and the timesheets.

The requirement for accurate time and attendance records makes their conscientious
preparation and timely review essential.


               We recommend:

               H.2.1 That the timekeeper ensure that the biweekly
                     timesheets are submitted in a timely manner and
                     reviewed by supervisors.

               H.2.2 That the timekeeper verify that the timesheets are
                     submitted timely and prepared accurately, and
                     follow up with staff members as needed.

               H.2.3 That the administrative officer instruct staff on the
                     proper recording of leave, holidays, and
                     compensatory time on the timesheets.

               H.2.4 That the timekeeper review the official time and
                     attendance records for the last two years and verify
                     that they reflect the actual hours worked and actual
                     leave taken as indicated on the timesheets.


I. FILE MANAGEMENT

1. The Volunteer folders in the medical unit files contained the Volunteers’ social
security numbers.

“Peace Corps Plan to Reduce Use of Personally Identifable Information and Social
Security Numbers,” dated September 7, 2007, states: “Peace Corps’ policy is to eliminate
the unnecessary collection and use of SSNs [social security numbers] ….There are only a
few instances where SSNs are required, and none of these is overseas.”




Final Audit Report: Peace Corps/Cape Verde                                            15
The tabs on the Volunteer folders in the medical unit contained the Volunteers’ social
security numbers. The PCMO told us that she kept them available in the event she was
required to complete medical forms or refer Volunteers for consultation with the area
PCMO.

To minimize the risk of identify theft and strengthen the protection of personal
information, the medical unit should not maintain the Volunteers’social security
numbers.


               We recommend:

               I.1.1   That the PCMO immediately remove the
                       Volunteers’ social security numbers from the
                       medical unit folders.


J. PROCUREMENT

1. The post signed the leases for Volunteer housing with the landlords and paid the
rent.

OFMH section 30.9 states: “Volunteer housing should be negotiated (lease signed) by
and paid directly by the Volunteer, through the Volunteer living allowance. Posts should
not sign leases nor process lease payments directly due to reasons of liability.”

The post paid for housing for its education Volunteers using host country contributions
designated for this purpose. The post located the housing, negotiated with the landlords,
signed the leases, and payed the monthly rent. The administrative officer told us that
although he was aware of OFMH policy, extenuating circumstances in Cape Verde
required that the post handle these responsibilities. He stated that because of limited
available housing, the post was required to sign the leases prior to the new Volunteers’
arrival at the sites, in order to place a hold on the housing. He also stated that some
landlords would be reluctant to lease to a Volunteer. He told us additionally that many
landlords did not live near the Volunteer, on the same island, or in Cape Verde.

The country director, regional director, and chief administrative officer for the Africa
region corroborated the situation described by the administrative officer and confirmed
that, in their opinion, the post’s handling was the most effective and efficient given the
particular circumstances.

Subsequent to our visit, the post obtained a waiver from the Director of Global Accounts
Payable, Office of the Chief Financial Officer. The waiver stated:

      Based on your explanation that local landlords would be reluctant to lease
      to Volunteers and the needs of post to have safe, appropriate residences


Final Audit Report: Peace Corps/Cape Verde                                                   16
      available to PCVs, and consistent with the Region’s recommendation, I
      concur with post’s request that PCV housing be paid directly by post to the
      landlord, based on a lease signed by PC, rather than by the PCV.

Accordingly, no recommendation is being made.


2. The post’s personal services contractor (PSC) files were missing some required
documents.

The post’s PSC files did not fully comply with the requirements of PCM section 743, as
follows:

•   Several PSC files did not contain security clearances and intelligence background
    information certification forms

•   Office of Medical Service’s approval of the Peace Corps Medical Officer’s (PCMO)
    contract was not on file.

As a result, documentation was not readily available for proper contract administration.


               We recommend:

               J.2.1   That the post obtain the needed security clearances
                       and intelligence background information
                       certification forms and place them in the PSCs’
                       files.

               J.2.2   That the post obtain the written approval of the
                       Office of Medical Services for the PCMO’s contract
                       and place the approval in her file.


K. PURCHASE CARD

1. The post’s administrative unit did not utilize the purchase card to the maximum
extent practicable in accordance with agency policy.

PCM section 731.3.1 states: “It is the policy of the Peace Corps to use the Purchase Card
to the maximum extent practicable in accordance with the guidance in this manual
section.”

The post’s administrative administrative officer held the purchase card. However, he did
not use the card to the maximum extent practicable in order to maximize procurement
efficiency and effectiveness. He identified several areas – vendor purchases in the capital



Final Audit Report: Peace Corps/Cape Verde                                                 17
Praia, monthly phone charges, and utilities – where the purchase card could be used, and
stated that he would explore others.

Use of the purchase card creates payment efficiencies for the post and may permit a
reduction in the cashier’s imprest fund accountability.


               We recommend:

               K.1.1 That the administrative unit maximize the use of its
                     purchase card.

               K.1.2 That the administrative officer determine if the
                     increased use of the purchase card permits a
                     reduction in the amount of the post’s imprest fund
                     accountability.


L. MEDICAL SUPPLIES

1. The medical secretary maintained the medical supplies inventory records and
performed the verifications.

PCM section 734.3.5 states: “The CD and PCMO share the responsibility to maintain
effective control over medical supplies….Assurance that effective controls are in place is
achieved through maintaining appropriate segregation of duties….”

The medical officer maintained the medical supplies inventory records and conducted
part of the inventory verification. Segregation of duties requires that these functions be
performed by different individuals.


               We recommend:

               L.1.1 That country director ensure that different
                     individuals maintain the medical supplies inventory
                     records and perform the inventory verification.


2. The post did not perform a physical inventory quarterly.

PCM section 734.3.5.3 states: “Inventories of medical supplies must be completed on a
quarterly basis.”




Final Audit Report: Peace Corps/Cape Verde                                                   18
The PCMO told us that the post conducted annual rather than quarterly physical
inventories. She told us that there was not sufficient time to conduct these on other than
an annual basis.


               We recommend:

               L.2.1 That the post conduct physical inventories of
                     medical supplies quarterly in accordance with PCM
                     section 734.


3. Discrepances existed between the medical supplies inventory and the related records.

PCM section 734.3.5 states: “Assurance that effective controls are in place is achieved
through…accurate record keeping….”

We noted discrepancies between the medical supplies on hand and the related records.
For example, for one drug, the shelves had three units, but the inventory records showed
seven. For another drug, the shelves had three units, but the records showed four. For a
third drug, the shelves had six units, but the records showed four. Another drug had 26
units on the shelves, but 24 units in the inventory records.

The PCMO told us that she informed the medical secretary of dispensed items either
verbally or by post-it notes. Several discrepancies were due to dispensed items not
deducted from the medical supplies records.

Accuracy in the recording of medical supplies and care in the updating of the inventory
records are essential in detecting and preventing waste, fraud, and abuse.


               We recommend:

               L.3.1 That the post conduct a complete physical inventory
                     of medical supplies in accordance with PCM
                     section 734 and update the inventory records
                     accordingly.




Final Audit Report: Peace Corps/Cape Verde                                                19
                     QUESTIONED COSTS AND
                  FUNDS TO BE PUT TO BETTER USE

We identified certain questioned costs and funds to be put to better use during the course
of the audit. They are discussed in the accompanying audit report and enumerated below
along with the recommendation number in the report. (Amounts are in U.S. dollars or
U.S. dollar equivalents of Cape Verde escudos at the rate of $1 equals 80 Cape Verde
escudos.)

                                  Questioned Costs


Recommendation
                                             Description                         Amount
    number
                    None.



                            Funds to be Put to Better Use


Recommendation
                                             Description                         Amount
    number
                    Prompt billing and collection of personal phone calls
      E.1.1                                                                      $485.50
                    made by staff.




Final Audit Report: Peace Corps/Cape Verde                                              20
                                  POST STAFFING

At the time of our visit, the post had 15 staff positions: two U.S. direct hires, three
foreign service nationals, and 10 personal services contractors.

We interviewed nine staff members, including the two U.S. direct hire employees and the
three foreign service national employees. All staff interviewed told us that they very
much enjoyed working at the Peace Corps. They stated that, in particular, they enjoyed
supporting and interacting with the Volunteers.

Volunteers told us that they appreciated the welcoming attitude of the Peace Corps staff
when the Volunteers visited the office, and the interest shown by the staff in their success
and well-being, as demonstrated by the numerous site visits by staff members. Volunteers
also stated that they had received effective ongoing support from the administrative unit
and praised the availability, responsiveness, and helpful attitude of the administrative
officer and the administrative staff.


                                 PC/Cape Verde Positions
                                 Position                              Status
            Country Director                                           USDH
            APCD/Education                                             USDH
            APCD/Small Enterprise Development                           PSC
            APCD/Administration                                         FSN
            Training Manager/CD Assistant                               PSC
            Program Assistant/Resource Center Manager                   PSC
            Safety and Security Coordinator                             PSC
            IT Specialist/Alternate Cashier                             FSN
            Administrative Assistant/Cashier                            FSN
            Financial Assistant                                         PSC
            General Services Coordinator/PST Logistician                PSC
            Peace Corps Medical Contractor                              PSC
            Medical Secretary/Receptionist                              PSC
            Building and Maintenance/Driver                             PSC
            Receptionist/Secretary                                      PSC




Final Audit Report: Peace Corps/Cape Verde                                                21
                     LIST OF RECOMMENDATIONS

We recommend:

A.1.1    That the country director ensure that the cashier be trained so that she may
         change the imprest fund safe combination.

A.1.2    That the cashier change the imprest fund safe combination annually, when there
         is a change in cashiers, or whenever the combination becomes known to a
         person other than the cashier.

A.2.1    That the post properly report cash advances to the alternate cashier on the
         imprest fund’s cashier reconciliation statement.

B.1.1    That the post compile and evaluate Volunteer living allowance surveys in a
         timely manner.

B.1.2    That the post conduct market basket surveys and use them in evaluating the
         results of the Volunteer living allowance surveys to determine whether the
         allowance is adequate to support the Volunteers’ living needs.

B.1.3    That the post conduct its market basket surveys in locations that are
         representative of where Volunteers live.

B.1.4    That the post correctly apply the 75% response rate policy for living allowances
         increases.

B.1.5    That the post review its Volunteer living allowance survey responses for
         variations to determine if the allowance should be stratified by location.

B.2.1    That the post conduct Volunteer settling-in allowance surveys and related
         independent price surveys to determine whether the allowance is adequate to
         support the Volunteers’ settling-in needs.

B.3.1    That the post execute a memorandum of agreement with the bank handling
         Volunteer living allowances.

C.1.1    That the billing officer bill staff for personal phone charges in a timely manner
         after receipt of the phone bills.

C.2.1    That the administrative officer determine the reasons for the gaps in numerical
         sequence in the bills of collection log and take corrective action as needed.




Final Audit Report: Peace Corps/Cape Verde                                               22
C.3.1    That the billing officer record host country contribution billings in the ForPost
         system and prepare the related bills of collection at the time the amounts are
         billed.

C.3.2    That the collection officer rather than the billing officer receive the host country
         contribution checks.

D.1.1    That the post record all host country contributions in its operating plan and its
         host country contributions quarterly report.

E.1.1    That the post keep the lists of Volunteer property held for safekeeping in a
         different location than the actual property.

E.2.1    That the post provide current and accurate written information to Volunteers
         regarding property held for safekeeping.

E.2.2    That the custodian of Volunteer property ensure that the property listings are
         accurate and are signed by both the custodian and the Volunteer.

F.1.1    That the post immediately conduct a physical inventory of its computer
         equipment and cell phones and ensure that the inventory listing reflects the
         current status and location of the equipment.

F.1.2    That the post institute a control procedure to track the locations of laptops and
         cell phones.

F.2.1    That prior to beginning the physical inventory, the property officer compare the
         property inventory records against written documentation of changes and verify
         that all changes have been recorded.

F.3.1    That the administrative officer reconcile the property inventory with receiving
         reports and requisition documentation quarterly.

G.1.1    That required staff members review, initial, and date the vehicle usage logs
         weekly.

G.1.2    That staff record all usage of post vehicles in the vehicle usage logs and that the
         descriptions be sufficiently detailed to permit review.

G.2.1    That the post establish adequate controls over its auctions in accordance with
         agency policy.

G.2.2    That, in the future, the post obtain all approvals required for the authorized use
         of Peace Corps vehicles and maintain these in the post’s files.




Final Audit Report: Peace Corps/Cape Verde                                                   23
H.1.1    That the post verify with the Cape Verde social security agency that all periodic
         payments made on behalf of staff have been received and properly recorded.

H.1.2    That, on an ongoing basis, the post determine if it needs to adjust the timing of
         its payments to the local social security agency to ensure their proper recording
         by the agency.

H.2.1    That the timekeeper ensure that the biweekly timesheets are submitted in a
         timely manner and reviewed by supervisors.

H.2.2    That the timekeeper verify that the timesheets are submitted timely and
         prepared accurately, and follow up with staff members as needed.

H.2.3    That the administrative officer instruct staff on the proper recording of leave,
         holidays, and compensatory time on the timesheets.

H.2.4    That the timekeeper review the official time and attendance records for the last
         two years and verify that they reflect the actual hours worked and actual leave
         taken as indicated on the timesheets.

I.1.1    That the PCMO immediately remove the Volunteers’ social security numbers
         from the medical unit folders.

J.2.1    That the post obtain the needed security clearances and intelligency background
         information certification forms and place them in the PSCs’ files.

J.2.2    That the post obtain the written approval of the Office of Medical Services for
         the PCMO’s contract and place the approval in her file.

J.2.3    That the PCMO sign her performance appraisal.

K.1.1    That the administrative unit maximize the use of its purchase card.

K.1.2    That the administrative officer determine if the increased use of the purchase
         card permits a reduction in the amount of the post’s imprest fund accountability.

L.1.1    That country director ensure that different individuals maintain the medical
         supplies inventory records and perform the inventory verification.

L.2.1    That the post conduct physical inventories of medical supplies quarterly in
         accordance with PCM section 734.

L.3.1    That the post conduct a complete physical inventory of medical supplies in
         accordance with PCM section 734 and update the inventory records
         accordingly.



Final Audit Report: Peace Corps/Cape Verde                                                  24
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Cape Verde covered fiscal years 2008 and 2009 through April
30, 2009. While at the post, we interviewed key staff including the country director, the
administrative officer, both program APCDs, the safety and security coordinator, staff
responsible for administrative support, and the medical officer. We also interviewed 16
Volunteers to obtain their views on the effectiveness of the post’s administrative and
financial systems in supporting them. During the audit, we briefed the country director
and administrative officer, and at the end of the audit, we briefed the acting country
director and the administrative officer. At headquarters, we conducted a general briefing
for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps manual, Overseas Financial Management Handbook, and current Peace Corps
initiatives and policies.
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
To:          Kathy Buller, Inspector General

From:        Lynn Foden, Acting Regional Director, Africa Region

Date:        November 6, 2009

Subject:     Region Response to the Preliminary Audit Report of PC/Cape Verde

The Africa Region would like to thank the Office of the Inspector General for the Preliminary Audit
Report of Peace Corps/Cape Verde. Post is very appreciative of the feedback presented through this
financial audit.
Attached, please find our response to the OIG report. Due to the size of the file, please find an electronic
copy of the response as well as supporting documentation saved here: S:\@Agency_All\IG\Cape Verde -
Africa Region Response . Post’s responses have been reviewed and integrated into this response. The
Africa Region will continue to work with Peace Corps/Cape Verde to ensure full implementation of the
OIG recommendations.
Please let me know if you have any questions or comments on any of our responses. The Region greatly
appreciates your guidance and support.


cc:   Stacy Rhodes, Chief of Staff/Operations
      Larry Blake, Chief Administrative Officer, AF Region
      Henry Weiss, Country Director, PC/Cape Verde
      Luis Goncalves, Administrative Officer, PC/Cape Verde
      Thomas Bellamy, Chief Financial Officer
      Cape Verde Country Desk Unit
          REGIONAL RESPONSE TO THE PRELIMINARY REPORT ON THE AUDIT OF
                          PEACE CORPS/ CAPE VERDE

The OIG conducted an audit of PC/Cape Verde in May of 2009. As outlined in the September 2009 report, Auditor
Steve Kaffen examined Post’s financial and administrative operations.

Please find attached the responses to a preliminary report on the audit of Peace Corps/ Cape Verde. The PC/ Cape
Verde senior staff and administrative team, Africa Region, as well as auditor Steven Kaffen and Gerry Montoya from
the OIG were consulted in developing the responses. Post is grateful for the helpful and professional manner in
which our region and the auditors have worked with us and is confident this response represents a practical
approach to close and comply with the recommendations.

Post appreciates the quality with which Mr. Kaffen worked with Post’s team as well as the clarity of the report and
explanations of the recommendations. Post’s senior staff and administrative team will use the results of this work to
continue to improve the post, program and operations to strive to better support its Volunteers.

Executive Summary

The Post and Region fully concurs with 39 of the 41 recommendations provided by the OIG. The Post and the
Region partially concur with two recommendations and the explanations for the partial concurrences are given in the
commentary. In both cases, Post consulted with Mr. Montoya or Mr. Kaffen and AF Region as suggested in the OIG
cover memo of September 18, 2009. Post has already implemented actions responding to all 41 of the
recommendations directed to Post, and anticipates closure on open items under its authority.

The PC/Cape Verde staff and the Africa Region place a high priority on continually improving financial and
administrative operations and appreciate the insight and information provided by the Peace Corps Office of the
Inspector General.

Recommendations and Responses

A.1.1 That the Country Director ensure that the cashier be trained so that she may change the Imprest
fund safe combination.

Response:       Concur

The Country Director met on this item with the DCM; the Cashier will be trained during the next visit of the Regional
Security Engineers (who are based in Dakar) planned for Dec. 2009.

Completion Date:       The completion date will be determined by the Regional Security Engineer’s visit to Post
planned with the DCM for Dec. 2009.

A.1.2 That the Cashier change the Imprest fund safe combination annually, when there is a change in
cashiers, or whenever the combination becomes known to a person other than the cashier.

Response:       Concur

Principal and Alternate cashiers will be trained to change the safe combination in Dec. 2009. After that they will be
able to change their own safe combination, to be in full compliance with 4 FAH-317.3-1; Knowledge of Combination
and 4 FAH-317-2 Changing Combination.

Completion Date:         The completion date will be done during the next Regional Security Engineer’s visit to Post
– planned for a date in Dec. 2009.

A.2.1 That the post properly report cash advances to the alternate cashier on the Imprest fund’s cashier
reconciliation statement.

Response:       Concur

Action already taken as per PCM section 760.13.1 right after the finding. The finding was reported based on 365 &
99 reports from the previous year. Please see attached cashier’s forms 365 & 99 dated 07/27/09 sent to FSC
(Attachment A.2.1_2).

Completion Date:         July 27, 2009

                                                                                                          Page 1 of 8
B.1.1   That the post compile and evaluate Volunteer living allowance survey in a timely manner.

Response:        Concur

Post sent the Living Allowance Survey forms C & D to all PCVs on September 15th, with a return date of November
30th, 2009 (see cover memo, Attachment B.1.1_2). During the next IST post will reinforce the need for returning the
completed surveys by the due date. Staff will follow up with Volunteers to support the process. By mid-December
the surveys will be compiled and evaluated as per the revised MS 221, Volunteer Allowances, dated 07/25/08.

Completion Date:          Mid-December 2009

B.1.2 That post conduct market basket surveys and use them in evaluating the results of the Volunteer
living allowance surveys to determine whether the allowance is adequate to support the Volunteers.

Response:        Concur

The AO and VAC representatives, led by PCV Rachelle Foroul, met on October 1, 2009 to determine the items and
locations where the survey will be performed. Staff on travel/site visits have already started gathering information on
the market basket worksheet – Form A (see Attachment B.1.2_2). By November 30th, 2009 post will have the
market basket survey data ready to help on determining the adequacy of PCVs living allowance results.

Completion date:          By November 30th

B.1.3   That post conduct its market basket surveys in locations that are representative of where Volunteers
live.

Response:        Concur

As per above, during the site visits post will conduct the market basket surveys in all volunteer locations to evaluate
the possibility of different rates for living allowance amounts (seven islands with up to five different locations) (see
market basket worksheet – Form B, Attachment B.1.3_2).

Completion date:          Before November 30th 2009

B.1.4   That the post correctly apply the 75% response rate policy for living allowances increases.

Response:        Concur

The living allowance memo sent on 09/15/09 to PCVs states that a survey response rate of a minimum of 75% is
required to support an increase greater than 10%. Post will apply the 75% response rate policy if needed depending
on the surveys results and as per PCM section 221.4.2. (see cover memo, Attachment B.1.1_2)

Completion date:          By mid-December 2009

B.1.5 That the post reviews its Volunteer living allowance survey responses for variations to determine if
the allowance should be stratified by location.

Response:        Concur

The current updated forms will facilitate data collection, taking into consideration all Volunteer sites and cost of living
variations through the country and by island.

Completion date:          By mid-December 2009

B.2.1 That the post conduct Volunteer settling-in allowance surveys and related independent price
surveys to determine whether the allowance is adequate to support the Volunteer’s settling-in need.

Response:        Concur

A settling-in survey form was sent to all 1st year PCVs (sworn-in 09/15/09), to be completed and returned by
November 30th, 2009 (see Attachment B.2.1_2). Also, staff is completing independent surveys for PCVs locations.
By mid-December the results will be compiled (volunteer surveys and staff independent surveys) and evaluated for
adequacy on the settling-in allowance amount.

Completion date:          By mid-December 2009

                                                                                                              Page 2 of 8
B.3.1 That the post execute a memorandum of agreement with the bank handling Volunteer living
allowances.
Response:    Concur

The existing memo was updated on September 30th as per the sample in the MS 221, Attachment D, dated July
2008, in order to reflect post’s needs. The memorandum of agreement between PC/CV and BCA has already been
sent to the bank for signature. (See Attachment B.3.1_3)

Completion date:         Estimated mid-November

C.1.1 That the billing officer bill staff for personal phone charges in a timely manner after receipt of the
phone bills.

Response:       Concur

BOCs for personal authorized calls are issued timely. Action has already been taken and is in place. Please see
BOC dated Oct. 16, 2009 for the phone bills received on Oct. 12, 2009 (Attachment C.1.1_3).

Completion date:         October 2009

C.2.1 That the administrative officer determine the reasons for the gaps in numerical sequence in the bills
of collection log and take corrective action as needed.

Response:       Concur

Weekly revisions to the BOC log have been implemented since the IG finding during the auditor visit on 05/18/09.
Also, Post contacted ForPost Support for clarification on the BOC ’s missing from the log: 655-08-C0038; 655-09-
C0134; 655-09-C0140; 655-09-C0144; 655-09-C0145 and duplicated BOCs: 655-08-C0057; 655-08-C0100. The
missing BOCs from the log: 655-09-C0140, and duplicated BOCs from the log 655-08-C0057; 655-08-C0100, have
been resolved. Pending from ForPost Support are the BOCs missing from the log: 655-08-C0038; 655-09-C0134;
655-09-C0144; 655-09-C0145. (See Attachment C.2.1_2)

As per the communications with ForPost Support, they discovered that if a user cancels (instead of saving) a
Prepare BOC record that the number is skipped (see communication with ForPost Support, Attachment C.2.1_3).

Completion date:         Initial action taken as of 05/18/09

C.3.1 That the billing officer record host country contribution billings in the ForPost system and prepare
the related bills of collection at the time the amounts are billed.

Response:       Concur

Beginning 10/1/09, BOCs are issued at the time post sends the letter to the MOE for the monthly HCC funds for
rents. See Attachment C.3.1_3.

Completion date:         Implemented as of 10/01/2009

C.3.2 That the collection officer rather than the billing officer receive the host country contributions
checks.

Response:       Concur

The Country Director has issued a Delegation of Authority to the Financial Assistant to serve as the Billing Officer for
Post (see Attachment C.3.2_2). The AO will review and oversee her role in billings and collections, including regular
periodic reviews of the BOC log.

Completion date:         Implemented as of 09/28/09

D.1.1 That the post record all host country contributions in its operating plan and its host country
contributions quarterly reports.

Response:       Concur



                                                                                                           Page 3 of 8
Post included all HCC in Cash and In-Kind in the FY10 Operating Plan and reported same in-kind to the OCFO in
QTR 4 FY09 (Attachment D.1.1_2).

Completion date:          Implemented as of 09/29/09

E.1.1 That the post keep the list of Volunteer property held for safekeeping in a different location than the
actual property.

Response:        Concur

The list of Volunteer property was transferred to the Administrative Officer for safekeeping on June 2, 2009 (see
memo dated 6/2/09, Attachment E.1.1_3).

Completion date:          June 2, 2009

E.2.1 That the post provide current and accurate written information to Volunteers regarding property held
for safekeeping.

Response:        Concur

The form, Receipt for Volunteer/Trainee Cash Accepted for Safekeeping, has been updated to add the written
information as per MS 235 4.1.4 – Items in Peace Corps Custody. During the trainees’ orientation days (last group
arrived on 07/15/09), post collected PCVs’ property, used the updated form, had the trainees sign the receipt and
gave them a copy (Attachment E.2.1_2). Post communicated with all PCVs who had signed the previous version of
the receipt, to ask them to stop in the office to sign the updated form (total of 20 still in process.)

Completion date:          Implemented July 16th, 2009 for all 1st year PCVs.

E.2.2 That the custodian of Volunteer property ensure that the property listings are accurate and are
signed by both the custodian and the volunteer.

Response:        Concur

Updated receipt form has spaces for PCVs and custodian signatures (See Attachment E.2.1_2). Also, all the forms
received for custody by the AO are checked and initialed to make sure all parties signed the form.

Completion date:          Action started with the new training class that arrived on July 15th, 2009

F.1.1 That the post immediately conduct a physical inventory of its computer equipment and cell phones
and ensure that the inventory listening reflects the current status and location of the equipment.

Response:        Concur

The full physical inventory of computers and cell phones was completed by the AO and GSC on September 2, 2009
(Attachment F.1.1_3).

Completion date:          September 2, 2009

F.1.2   That the post institute a control procedure to track the locations of laptops and cell phones.

Response:        Concur

Post has implemented an updated control procedure using an Access database created by the ITS to easily track
the location of items as well as print out a list of property in staff custody for signature. Also, a form was created to
be used any time property is moved, and authorization for the movement is now in writing. (Attachments F.1.2_2 &
F.2.1_2)

Completion date:          Implemented September 2, 2009

F.2.1 That prior to beginning the physical inventory, the property officer compare the property inventory
records against written documentation of changes and verify that all changes have been recorded.

Response:        Concur



                                                                                                              Page 4 of 8
The new Access database in place facilitates the recording of changes in the location of property at the time they
occur, as well as for queries (see Attachment F.2.1_2).

Completion date:         Implemented September 2, 2009

F.3.1 That the administrative officer reconciles the property inventory with receiving reports and
requisition documentation quarterly.

Response:       Concur

All new acquisitions documents and receiving reports must have a PC ID number prior to the AO approving the
Purchase Order and verification in the database that the information is correct. This new procedure has been used
with all equipment received since the time of the OIG visit to post (See Attachment F.3.1_3).

Completion date:         Ongoing, begun May 2009

G.1.1   That required staff members review, initial, and date the vehicle usage logs weekly.

Response:       Concur

Post updated the daily vehicle log; it is now signed every week by the GSC and AO (Attachment G.1.1_3).

Completion date:         Implemented as of July 6, 2009

G.1.2 That staff record all usage of post vehicles in the vehicle usage logs and that the descriptions be
sufficiently detailed to permit review.

Response:       Concur

The daily vehicle log has been updated to allow enough space for detailed descriptions on the trips. Also, all staff
using the vehicle now get prior authorization from his/ her supervisor, before receiving the vehicle keys from the GS
section, whose responsibility it is to make sure the vehicle log is fully completed (see revised log, Attachment
G.1.1_3).

Completion date:         Implemented as of July 6, 2009

G.2.1   That the post establish adequate controls over its auctions in accordance with agency policy.

Response:       Concur

Post has developed a standard bid form with fields for the bid amount, and bidder name, address and contact phone
numbers. In the newspaper announcements, Post informed the bidders that a standard form should be used and it
would be provided by PC. At the guard booth (the initial point of receipt of the bids), Post placed a sealed box, a log
sheet, a date received stamp and instructed the guards both verbally and in writing on how to register and number
the envelopes containing the bids. (See Attachment G.2.1_2)

Completion date:         Action to be fully implemented from the close date of the auction – 11/04/09

G.2.2 That, in the future, the post obtain all approvals required for the authorized use of Peace Corps
vehicles and maintain these in the post’s files.

Response:       Concur

The procedure for the arrival USDH staff has been updated to reflect the Regional & Chief of Mission approval for
vehicle use during the first and last 90 days at Post as per MS 522 - 4.3.1 (see Attachment G.2.2_3).

Completion date:         To be implemented at the first USDH arrival to post.

H.1.1 That the post verify with the Cape Verde social security agency that all periodic payments made on
behalf of staff have been received and properly recorded.

Response:       Concur

Since July 1, 2006 the Cape Verde Social Security Agency (INPS), has counted the 2 pay periods (28 days) as one
month of payment. This was because the PC/HQ issues a check to pay INPS every pay period and the payment is

                                                                                                           Page 5 of 8
made at post for every 2 pay periods (28 days). The local insurer considers the 2 pay periods (28 days) as a full
month payment, and ignores that on the INPS form submitted for the corresponding 2 PPs, post mentions the
coverage dates and number of days covered. After a meeting with the INPS officer, Post was informed that the
system in place considers the 28 days as a month, and that as per their records it’s accurate. The HR office at the
Embassy informed Post that at the end of each FY they have to return to each staff the amount collected from the
INPST for the 2 PPs and collect the Embassy contributions percentage.

Post will need authorization from PC/HQ to make the monthly payment directly to the vendor on a monthly basis or
return the amount of the 2 pay periods to the PSCs at the end of the contracts/optional year. Post would prefer to
order checks/EFT for a monthly payment, ensuring the full calendar year is covered.

Completion date:         Pending PC/HQ authorization.

H.1.2 That, on an ongoing basis, the post determine if it needs to adjust the timing of its payments to the
local social security agency to ensure their proper recording by the agency.

Response:       Concur

A quarterly balance is performed at post and at the end of each calendar year a meeting will be done with the local
Social Security Agency for year-end close outs.

Completion date:         On-going. Pending the finding on H.1.1 and OIG advice.

H.2.1 That the timekeeper ensure that the biweekly timesheets are submitted in a timely manner and
reviewed by supervisors.

Response:       Concur

The timekeeper sends a reminder to all staff every pay period and collects timesheets on time. All timesheets are
received on time by the supervisor, signed and submitted to the timekeeper as of pay period 12 (see Attachment
H.2.1_3).

Completion date:         Implemented as of pay period 12 (06/22/09)

H.2.2 That the timekeeper verifies that the timesheets are submitted timely and prepared accurately and
follow up with staff members needed.

Response:       Concur

In a staff training presentation on June 3, 2009, all staff were instructed on the timesheet procedure and how to
complete timesheets. Also, all staff have been advised to see the timekeeper or AO for any questions related to the
timesheets.

Completion date:         Implemented June 22, 2009.

H.2.3 That the administrative officer instruct staff on the proper recording of leave, holidays, and
compensatory time on the timesheets.

Response:       Concur

An instruction note was added to all timesheets and an all-staff training was done on June 3, 2009 on the use and
proper recording of leave, holidays, and compensatory time on the timesheets. The new form is also self-
explanatory (see Attachment H.2.3_2).

Completion date:         Implemented June 22, 2009

H.2.4 That the timekeeper review the official time and attendance records for the last two years and verify
that they reflect the actual hours worked and actual leave taken as indicated on the timesheets.

Response:       Concur

All timesheets for current staff have been reviewed by the timekeeper and corrected copies have been signed by the
supervisors and staff members (see Attachment H.2.4_3).

Completion date:         Oct. 21, 2009

                                                                                                         Page 6 of 8
I.1.1   That the PCMO immediately remove the Volunteers social security numbers from the medical unit
folders.

Response:       Concur

All social security numbers have been removed from volunteers’ file folders in the locked medical cabinets as of
October 6, 2009, but some records (received from OMS) with volunteer SSNs remain inside of each individual file.
Also, the guidelines regarding protection of volunteer SSNs and personal information have been posted on all file
cabinets containing volunteer files. (See communication with OMS, Attachment I.1.1_3)

Completion date:         Action taken on 10/06/09

J.2.1 That the post obtain the needed security clearances and intelligent background information
certification forms and place them in the PSCs files.

Response:       Concur

Post has already obtained all ID Badges for the staff missing security clearances as well as obtained from the
Embassy a copy of the Re-certification for Continued Employment for PSC M. da Veiga (see Attachment J.2.1_3)

Completion date:         September 8, 2009

J.2.2 That the post obtain the written approval of the Office of Medical Services for the PCMO’s contract
and place the approval in her file.

Response:       Concur

Post has approval e-mails from Marty Leishman, PCMO Program Coordinator, and Dr. Kenneth Kim, Chief of Quality
Improvement, and copies have been placed in the PCMO’s personnel file (see Attachment J.2.2_2).

Completion date:         October 8, 2009

J.2.3   That the PCMO sign her performance appraisal.

Response:       Concur

The PCMO has signed her performance appraisal and a copy has been placed in her personnel file (Attachment
J.2.3_3).

Completion date:         September 2, 2009

K.1.1   That the administrative unit maximize the use of its purchase card.

Response:       Partially Concur

Only one airline company, TACV (the national government airline), accepts payments using VISA with fees of 4.00
euros (USD $5.95) per transaction. Due to the unavailability of this government agency during the weekends,
holidays and outside of regular business hours (08:00 – 17:00), post cannot use them for all travel on a regular
basis. Several agencies PC does business with haven’t yet begun accepting the VISA card and cannot say when
VISA cards will be accepted. Nonetheless, by using the above mentioned airline company and a few others, post
can reduce the number of vouchers sent to CFO for processing.

Completion date:         Ongoing

K.1.2 That the Administrative officer determine if the increased use of the purchase card permits a
reduction in the amount of the post’s Imprest fund accountability.

Response:                Partially Concur

The use of VISA cards is still a new process in the Cape Verdean economy. In the future, the use of the VISA card
to make payments will reduce our imprest fund accountability at post. However, currently credit card and banking
systems here do not yet have the IT networks and ATM support in place to allow nationwide purchase card use with
all the different vendors post needs to use in all the regions and islands in the country. As of 10/10/09, VISA was


                                                                                                       Page 7 of 8
accepted by one airline company, TACV, that Post does not always use for the reasons mentioned in the response
to Recommendation K.1.1.

Completion date:         Evaluation and determination made 10/10/09

L.1.1 That the Country Director ensures that different individuals maintain the medical supplies inventory
records and perform the inventory verification.

Response:       Concur

Post has amended the SOWs of two staff members to include the duties of Acceptance Point Clerk (APC) and
Medical Supply Inventory Control (MSIC) Clerk (see Attachment L.1.1_2). The Administrative Assistant/ Cashier
acts as the APC and is responsible for receiving the medical supplies at post and coordinating the initial inventory
and transfer of the supplies/equipment to the Medical Unit. The Information & Technology Specialist acts as the
MSIC clerk and is responsible for maintaining the Medical Inventory Control Log, which houses the inventory status
of all medical supplies that are specially designated or controlled substances purchased, received, and stocked at
post.

Completion date:         In process; action taken September 2, 2009

L.2.1 That the post conduct physical inventories of medical supplies quarterly in accordance with PCM
section 734.

Response:       Concur

The last quarterly (Q4) physical inventory was reviewed by the CD on 0ctober 4, 2009 (Attachment L.2.1_3).

Completion date:         Oct. 4, 2009 and ongoing

L.3.1 That the post conducts a complete inventory of medical supplies in accordance with PCM section
734 and update the inventory records accordingly.

Response:       Concur

The full yearly medical supplies inventory will take place in November 2009.

Completion date:         Action and implementation by the end of November 2009.




                                                                                                         Page 8 of 8
APPENDIX C

                               OIG COMMENTS

Management concurred with all 41 recommendations. We closed recommendations
A.2.1, C.1.1 – G.2.2, H.2.1 – L.2.1. Recommendations A.1.1, A.1.2, B.1.1 – B.3.1,
H.1.1, H.1.2, and L.3.1 remain open pending confirmation from the chief compliance
officer that the following has been received:

   •   For recommendations A.1.1 and A.1.2, documentation that the cashier has
       received training to change the imprest fund safe combination.

   •   For recommendation B.1.1, B.1.4, and B.1.5, a copy of the Volunteer living
       allowance survey analysis.

   •   For recommendation B.1.2 and B.1.3, a copy of the market basket survey
       analysis.

   •   For recommendation B.2.1, a copy of the post’s analysis of the settling-in
       allowance survey and related independent price surveys.

   •   For recommendation B.3.1, a copy of the memorandum of agreement

   •   For recommendation H.1.1 and H.1.2, documentation that the post has instituted a
       process to ensure that payments are made appropriately and timely to the Cape
       Verde Social Security Agency.

   •   For recommendation L.3.1, a copy of the medical supplies inventory.

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX D

            AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Senior auditor Steven Kaffen performed the audit.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please e-mail Gerald P. Montoya, Assistant Inspector General for Audits, at
gmontoya@peacecorps.gov, or call him at (202) 692-2907.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
